<html>
<title> - TO EXAMINE THE IMPACTS OF INVASIVE SPECIES ON THE PRODUCTIVITY, VALUE, AND MANAGEMENT OF LAND AND WATER RESOURCES; TO CONDUCT OVERSIGHT ON THE NATIONAL INVASIVE SPECIES COUNCIL'S NEW FRAMEWORK FOR EARLY DETECTION AND RAPID RESPONSE; TO EXAMINE IMPROVED COOPERATIVE TOOLS FOR CONTROL AND MANAGEMENT; AND TO RECEIVE TESTIMONY ON S. 2240, TO IMPROVE THE CONTROL AND MANAGEMENT OF INVASIVE SPECIES THAT THREATEN AND HARM FEDERAL LAND UNDER THE JURISDICTION OF THE SECRETARY OF AGRICULTURE AND THE SECRETARY OF THE INTERIOR AND FOR OTHER PURPOSES</title>
<body><pre>[Senate Hearing 114-501]
[From the U.S. Government Publishing Office]





                                                         S. Hrg 114-501

               TO EXAMINE THE IMPACTS OF INVASIVE SPECIES
                    ON THE PRODUCTIVITY, VALUE, AND
                MANAGEMENT OF LAND AND WATER RESOURCES;
                  TO CONDUCT OVERSIGHT ON THE NATIONAL
                INVASIVE SPECIES COUNCIL'S NEW FRAMEWORK
                FOR EARLY DETECTION AND RAPID RESPONSE;
                 TO EXAMINE IMPROVED COOPERATIVE TOOLS
                    FOR CONTROL AND MANAGEMENT; AND
                    TO RECEIVE TESTIMONY ON S. 2240,
               THE FEDERAL LAND INVASIVE SPECIES CONTROL,
                     PREVENTION, AND MANAGEMENT ACT

=======================================================================

                                HEARING

                               BEFORE THE

                            SUBCOMMITTEE ON
                   PUBLIC LANDS, FORESTS, AND MINING

                                 OF THE

                              COMMITTEE ON
                      ENERGY AND NATURAL RESOURCES
                          UNITED STATES SENATE

                    ONE HUNDRED FOURTEENTH CONGRESS

                             SECOND SESSION

                               __________

                             APRIL 28, 2016


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]




                       Printed for the use of the
               Committee on Energy and Natural Resources

         Available via the World Wide Web: http://www.fdsys.gov
         
                                  ________
         
                         U.S. GOVERNMENT PUBLISHING OFFICE 

21-978                         WASHINGTON : 2017 
-----------------------------------------------------------------------
  For sale by the Superintendent of Documents, U.S. Government Publishing 
  Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; 
         DC area (202) 512-1800 Fax: (202) 512-2104 Mail: Stop IDCC, 
                          Washington, DC 20402-0001
         
         
         
         
         
         
         
         
         
         
         
         
         
         
         
         
         
         
         
         
               COMMITTEE ON ENERGY AND NATURAL RESOURCES

                    LISA MURKOWSKI, Alaska, Chairman
JOHN BARRASSO, Wyoming               MARIA CANTWELL, Washington
JAMES E. RISCH, Idaho                RON WYDEN, Oregon
MIKE LEE, Utah                       BERNARD SANDERS, Vermont
JEFF FLAKE, Arizona                  DEBBIE STABENOW, Michigan
STEVE DAINES, Montana                AL FRANKEN, Minnesota
BILL CASSIDY, Louisiana              JOE MANCHIN III, West Virginia
CORY GARDNER, Colorado               MARTIN HEINRICH, New Mexico
ROB PORTMAN, Ohio                    MAZIE K. HIRONO, Hawaii
JOHN HOEVEN, North Dakota            ANGUS S. KING, JR., Maine
LAMAR ALEXANDER, Tennessee           ELIZABETH WARREN, Massachusetts
SHELLEY MOORE CAPITO, West Virginia

           Subcommittee on Public Lands, Forests, and Mining

                        JOHN BARRASSO, Chairman
SHELLEY MOORE CAPITO                 RON WYDEN
JAMES E. RISCH                       DEBBIE STABENOW
MIKE LEE                             AL FRANKEN
STEVE DAINES                         JOE MANCHIN III
BILL CASSIDY                         MARTIN HEINRICH
CORY GARDNER                         MAZIE K. HIRONO
JOHN HOEVEN                          ELIZABETH WARREN
JEFF FLAKE
LAMAR ALEXANDER
                      Colin Hayes, Staff Director
                Patrick J. McCormick III, Chief Counsel
   Lucy Murfitt, Senior Counsel and Natural Resources Policy Director
            Angela Becker-Dippman, Democratic Staff Director
                Sam E. Fowler, Democratic Chief Counsel
        Bryan Petit, Democratic Senior Professional Staff Member



























                            C O N T E N T S

                              ----------                              

                           OPENING STATEMENTS

                                                                   Page
Barrasso, Hon. John, Subcommittee Chairman and a U.S. Senator 
  from Wyoming...................................................     1
Franken, Hon. Al, a U.S. Senator from Minnesota..................     3
Hirono, Hon. Mazie K., a U.S. Senator from Hawaii................     4
Risch, Hon. James E., a U.S. Senator from Idaho..................     5
Gardner, Hon. Cory, a U.S. Senator from Colorado.................    17

                               WITNESSES

Casamassa, Glenn, Associate Deputy Chief, U.S. Forest Service, 
  U.S. Department of Agriculture.................................     7
Pool, Mike, Acting Deputy Director for Operations, Bureau of Land 
  Management, U.S. Department of the Interior....................    17
Miyamoto, Doug, Director, Wyoming Department of Agriculture......    25
Beck, Dr. George, Professor of Weed Science, Colorado State 
  University.....................................................    30
Campbell, Dr. Faith, Vice President, Center for Invasive Species 
  Prevention.....................................................    41

          ALPHABETICAL LISTING AND APPENDIX MATERIAL SUBMITTED

Barrasso, Hon. John:
    Opening Statement............................................     1
Beck, Dr. George:
    Opening Statement............................................    30
    Written Testimony............................................    32
    Responses to Questions for the Record........................    88
Campbell, Dr. Faith:
    Opening Statement............................................    41
    Written Testimony............................................    43
Casamassa, Glenn:
    Opening Statement............................................     7
    Written Testimony............................................     9
    Responses to Questions for the Record........................    76
Franken, Hon. Al:
    Opening Statement............................................     3
Gardner, Hon. Cory:
    Opening Statement............................................    17
Hirono, Hon. Mazie K.:
    Opening Statement............................................     4
Miyamoto, Doug:
    Opening Statement............................................    25
    Written Testimony............................................    27
    Responses to Questions for the Record........................    86
Perryman, Dr. Barry:
    Statement for the Record.....................................    91
Pool, Mike:
    Opening Statement............................................    17
    Written Testimony............................................    20
    Responses to Questions for the Record........................    81
Risch, Hon. James E.:
    Statement for the Record.....................................     5
    Written Statement............................................     6
S. 2240, the Federal Land Invasive Species Control, Prevention, 
  and Management Act.............................................    62
 
TO EXAMINE THE IMPACTS OF INVASIVE SPECIES ON THE PRODUCTIVITY, VALUE, 
AND MANAGEMENT OF LAND AND WATER RESOURCES; TO CONDUCT OVERSIGHT ON THE 
 NATIONAL INVASIVE SPECIES COUNCIL'S NEW FRAMEWORK FOR EARLY DETECTION 
 AND RAPID RESPONSE; TO EXAMINE IMPROVED COOPERATIVE TOOLS FOR CONTROL 
  AND MANAGEMENT; AND TO RECEIVE TESTIMONY ON S. 2240, TO IMPROVE THE 
   CONTROL AND MANAGEMENT OF INVASIVE SPECIES THAT THREATEN AND HARM 
FEDERAL LAND UNDER THE JURISDICTION OF THE SECRETARY OF AGRICULTURE AND 
          THE SECRETARY OF THE INTERIOR AND FOR OTHER PURPOSES

                              ----------                              


                        THURSDAY, APRIL 28, 2016

                                       U.S. Senate,
         Subcommittee on Public Lands, Forests, and Mining,
                 Committee on Energy and Natural Resources,
                                                    Washington, DC.
    The Subcommittee met, pursuant to notice, at 2:30 p.m. in 
Room SD-366, Dirksen Senate Office Building, Hon. John 
Barrasso, Chairman of the Subcommittee, presiding.

  OPENING STATEMENT OF HON. JOHN BARRASSO, U.S. SENATOR FROM 
                            WYOMING

    Senator Barrasso. The Subcommittee will come to order.
    The purpose of today's hearing is to examine the ecological 
impacts of invasive species, to conduct oversight on the 
National Invasive Species Council's new framework for early 
detection and rapid response, and to receive testimony on a 
bill, S. 2240, the Federal Lands Invasive Species Control 
Prevention and Management Act.
    The issue we are here to discuss today is at the heart of 
many important issues our communities face. Every year out of 
control invasive species populations cost the United States 
more than
$100 billion. The number is substantial but it pales in 
comparison to the ecological damage caused by invasive species.
    In my home state of Wyoming we deal with many invasive 
species that compromise water resources and landscape health. 
As a result of fragmented land ownership and poor forage 
management, invasive species, like cheat grass, now infest 
hundreds of millions of acres. These infestations threaten soil 
retention and increase the likelihood of fast moving, 
catastrophic wildfires; they are low quality forage for 
wildlife and livestock; and, they are an unnecessary burden on 
our already taxed water supply.
    As we all know, catastrophic wildfires destroy wildlife 
habitat, they contaminate watersheds and they cause unspeakable 
damage to our landscapes.
    Cheat grass infestations make these fires more likely and 
ultimately worse when they do happen. As an annual grass, cheat 
grass is the first to return after a fire has decimated the 
landscape. Other seedlings are pushed out by cheat grass and 
soon the landscape is overrun. These mono cultures are far more 
susceptible to future fires and so the cycle continues.
    But this does not just happen after a catastrophic 
wildfire. Although they are not here to provide testimony 
today, the Fish and Wildlife Service has consistently 
recognized that cheat grass infestations pose one of the most 
significant threats to sage grouse habitat conservation 
efforts.
    The worst part is that cheat grass is only one of many 
invasive species we face. Zebra and Quagga mussels threaten our 
aquatic ecosystems and cause millions of dollars in damage to 
dams, to municipal water systems, and to agriculture irrigation 
systems.
    Land and waters are under constant threat from invasive 
populations. I know from walking/talking with Senator Stabenow, 
Asian carp has overtaken the Great Lakes and now threaten 
watersheds downstream.
    In 1999 Executive Order 13112 established the National 
Invasive Species Council. The Council was intended to 
coordinate invasive species management programs around Federal 
agencies. Several subsequent reports from the Government 
Accountability Office describe the Council as widely 
ineffective, much like the agency's own efforts to stem the 
tide of invasive species.
    The concept of a council is not without merit; however, 
there is an overwhelming consensus that something must be done 
to more effectively coordinate agency efforts. Last year 
attendees at the Western Invasive Weed Summit outlined a set of 
barriers that hamper their ability to control explosive 
invasive populations. Among those barriers were lack of 
coordination and communication among agencies, lack of 
leadership and accountability among oversight bodies and 
insufficient monitoring compliance and enforcement. The gaps 
must be addressed.
    That is why I introduced S. 2240, the Federal Lands 
Invasive Species Control Prevention and Management Act. This 
bill sets clear targets for reduction of invasive species that, 
while ambitious, I believe will motivate success with the tools 
it provides.
    As part of the target to achieve an annual five percent 
reduction in invasive populations, S. 2240 requires annual 
reports of the successes and failures of management efforts.
    It also provides limited categorical exclusions so that 
when personnel see an area that is at risk for a catastrophic 
infestation, they are able to react quickly to prevent 
environmental damage. Land managers want to streamline NEPA 
approach to the most critical cases so that the processes which 
are meant to protect our environment are not inadvertently 
causing damage.
    Most importantly, S. 2240 encourages the use of 
collaborative partnerships to ensure that management efforts 
are unrestricted by jurisdictional boundaries. Cheat grass does 
not stop at the fence line. Control efforts should not stop 
there either.
    I want to thank each of our five witnesses for being with 
us today. I now turn to Senator Franken for his opening 
remarks.

   STATEMENT OF HON. AL FRANKEN, U.S. SENATOR FROM MINNESOTA

    Senator Franken. Thank you, Mr. Chairman, for scheduling 
this hearing on such an important topic.
    As you said, invasive species are a significant threat to 
our national economy, to environmental resources, and to the 
public health. They cost the United States billions of dollars 
in damages each year, some research suggests over $120 billion, 
and they are often remarkably persistent and difficult to keep 
in check. Many non-native invasive species spread at a rate 
that far outpaces our ability to contain them, a problem 
compounded by our limited resources to fight back. This is an 
issue that, of course, crosses state jurisdictional boundaries 
and obviously requires coordination at the highest levels.
    I commend the Administration for the work they are doing 
with the National Invasive Species Council to improve federal 
response and coordination on this issue.
    As many of you know, addressing invasive species becomes 
difficult, increasingly so, as the species becomes more 
established or widespread. Efficiently leveraging our resources 
to combat invasive species is critical with an eye toward 
eradication and long-term control, and the work of the National 
Invasive Species Council is a step in that direction.
    In Minnesota, non-native invasives continue to threaten the 
health of our forests and aquatic environments, like in 
Wyoming. Species such as the Emerald Ash Borer, the Gypsy Moth, 
Zebra Mussels, and Asian Carp are becoming increasingly 
pervasive and costly. These species have spread quickly and 
have damaged both my state's natural resources and economy.
    From 2014 to 2015 the number of counties in Minnesota 
affected by the Emerald Ash Borer has almost doubled. This 
insect infests trees and kills them within three years, and 
unfortunately today we have few effective controls.
    To make things worse, there is climate change, which is 
already affecting the range and severity of invasive species 
throughout our country. And I think that it's really important 
that we consider those impacts.
    For example, warmer winters allow the Emerald Ash Borer to 
continue to spread more rapidly, and other species will follow 
behind them. I do not think we can fully combat this problem 
without addressing climate change.
    In closing, we are also here today to consider Chairman 
Barrasso's bill on invasive species. I greatly appreciate his 
engagement on this issue and wholeheartedly agree that we must 
develop tools and strategies to get ahead of our problem, a 
problem that is affecting all of us from Senator Hirono's State 
of Hawaii, to Minnesota, to Maine.
    We might have some differences of opinion on how to do 
this, but we certainly agree that it is a worthy and important 
topic that requires a coordinated prevention and response 
strategy.
    I look forward to discussing this issue today in order to 
move toward a solution to combat the spread of harmful invasive 
species.
    Senator Barrasso. Thank you for that conclusion and 
consideration.
    Senator Franken. Yes.
    Senator Barrasso. Are there any other members who would 
like to make a statement?
    Senator Hirono.

  STATEMENT OF HON. MAZIE K. HIRONO, U.S. SENATOR FROM HAWAII

    Senator Hirono. Thank you very much, Mr. Chairman, for 
convening this panel and this hearing.
    I think Hawaii is known as the invasive species capital of 
the country, so this is a topic that is really important to us. 
Certainly the threat of invasive species is something that we, 
in Hawaii, are all too familiar with.
    In fact, the Washington Post just this past Monday 
published an article asking the question, ``Is Hawaii the 
extinction capital of the world?'' To take an excerpt out of 
the article, I am quoting the article, ``Across the Hawaiian 
Island chain non-native species have been rapaciously 
destroying native plants and birds, feral cattle and pigs have 
trampled large patches of forest habitat, other non-native 
species such as rats and the mongoose devour birds and bird 
eggs.'' To quote a Fish and Wildlife Service employee in the 
article, ``Hawaii is the sounding board for the mainland. Our 
problems are becoming its problems. We're just a concentrated 
laboratory. When something goes bad here, it goes bad big 
time.''
    I agree that more coordination and resources on the federal 
level are necessary to effectively prevent, control and 
mitigate invasive species. While I disagree with a number of 
provisions outlined in S. 2240, I do look forward to working 
with you, Senator Barrasso, and members of the Committee, to 
explore ways in which we can strengthen our nation's prevention 
and response to invasive species.
    Thank you.
    Senator Barrasso. Thank you very much, Senator Hirono.
    It is now time to hear from our witnesses:
    Mr. Glenn Casamassa, who is the Associate Deputy Chief of 
the Forest Service. Thank you for joining us.
    Mr. Mike Pool, the Acting Deputy Director of the Bureau of 
Land Management. Thank you.
    Mr. Doug Miyamoto, who is the Director of the Wyoming 
Department of Agriculture. We appreciate you being here again.
    Dr. George Beck, who is a Professor of Weed Science at 
Colorado State University. Thank you.
    And Dr. Faith Campbell, Vice President of the Center for 
Invasive Species Prevention. Welcome.
    I would like to take a moment to introduce my constituent, 
Doug Miyamoto. He has served as the Director of the Wyoming 
Department of Agriculture since 2015. Prior to that he served 
as the Director and Chief Executive Officer of the Wyoming 
Livestock Board. He is a native of Wyoming. He is a University 
of Wyoming alumni, former NRCS employee. He provides an 
important multifaceted perspective on the issues we face today.
    I would ask that each of the witnesses try to keep your 
testimony within five minutes.
    Before turning to you, Mr. Casamassa, I would welcome 
Senator Risch and I know you have an opening statement.

   STATEMENT OF HON. JAMES E. RISCH, U.S. SENATOR FROM IDAHO

    Senator Risch. Thank you very much, Mr. Chairman, I do.
    I want to thank you for holding this hearing on a very 
important issue. I think those of us who live in Western 
states, particularly, have had some pretty difficult 
experiences in the area that we are talking about today. The 
invasive species, be it aquatic or be it land, have been a real 
and growing problem.
    I have a detailed opening statement that I would like to 
submit, and I would ask unanimous consent that it be placed in 
the record.
    Thank you very much, Mr. Chairman.
    Senator Barrasso. Without objection.
    [The information referred to follows:]
    
  [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
  
    
    The Chairman. Thank you.
    Thank you, Senator Risch.
    Mr. Casamassa.

  STATEMENT OF GLENN CASAMASSA, ASSOCIATE DEPUTY CHIEF, U.S. 
         FOREST SERVICE, U.S. DEPARTMENT OF AGRICULTURE

    Mr. Casamassa. Chairman Barrasso and members of the 
Subcommittee, thank you for the opportunity to testify before 
you today on the role of the Forest Service in protecting 
forests and grasslands from invasive species.
    The Forest Service is committed to the prevention, 
detection, control, management and eradication of invasive 
species and to restoring the structure and function of affected 
aquatic and terrestrial ecosystems on all lands. As such, the 
Administration supports the Federal Lands Invasive Species 
Control Prevention and Management Act.
    Invasive species are among the most significant 
environmental, economic threats facing our nation. Aquatic and 
terrestrial invasive plants, pathogens, vertebrae, invertebrae, 
algae and fungi have become established on millions of acres 
across North America.
    These infestations degrade watersheds, reduce forest and 
rangeland productivity, increase the risk of wildfire and soil 
erosion, negatively impact human health and safety, threaten 
native fish and wildlife populations and their associated 
habitats and undermine the economy at all levels.
    Invasive species cause billions of dollars in damage each 
year in the United States. With internationally recognized land 
management and scientific expertise, the Forest Service is 
well-suited to address the many challenges of invasive species. 
The Forest Service continues to play an important national and 
international leadership role in advancing the understanding of 
invasive species' problems.
    The wide-ranging authorities of the Forest Service allow us 
to work with partners and to combat invasive species across all 
lands, public and private. We also develop methods, tools and 
approaches through which these harmful exotic species can be 
detected, prevented, controlled and eradicated.
    The Forest Service has a responsibility for the stewardship 
of over 193,000,000 acres of public lands within the National 
Forest System. This vast system extends from Alaska to the 
Caribbean and includes examples of nearly every type of aquatic 
and terrestrial ecosystem in North America. These lands and 
waters are under tremendous pressures from aquatic and 
terrestrial invasives. Effective management of these harmful 
exotic species that cripple part of the agency's land 
stewardship responsibility.
    The Forest Service invasive species management performance 
is outcome driven with the focus on treating and destroying 
priority areas to improve watershed condition and reduce long 
term impacts. We typically treat nearly 400,000 acres of 
priority aquatic and terrestrial invasive species infestations 
annually. Since 2007 the Forest Service has restored more than 
2,000,000 acres of national forest lands and waters with very 
high treatment success rates each year.
    To accelerate the expansion of our on-the-ground efforts, 
an invasive species' management policies for the National 
Forest System was issued in late 2011. The policy defines and 
clarifies the authority, scope, roles and responsibilities 
associated with the National Forest System management 
activities against aquatic and terrestrial invasive species.
    The Forest Service provides a wide range of technical and 
financial assistance to state natural resource and agricultural 
agencies, tribal governments and other Federal land management 
agencies to respond to and manage forest pests that threaten 
the nation's 851,000,000 acres of rural and urban forest 
through programs such as our urban and community forestry 
program.
    In 2014 the Forest Service program provided about $1.8 
million in essential matching funds and technical assistance to 
state governments to combat economically significant weed 
threats to state and private forest lands.
    Since the turn of the century the Forest Service, working 
in partnership with states and other federal agencies, have 
implemented a national slow-to-spread strategy to minimize the 
rate of which gypsy moth spreads into uninfested areas. The 
program has reduced the spread of gypsy moth more than 60 
percent from the historical levels of 13 miles per year. In 
only 12 years this program has prevented impacts on more than 
100,000,000 acres.
    In Fiscal Year 2015 the Forest Service research and 
development branch delivered 258 invasive species tools which 
included a decision support model that estimates the 
suitability of preemptive quarantine across multiple counties 
that surround areas infested with the Emerald Ash Borer.
    In addition, the Forest Service research and development 
scientists demonstrated that a fungal pathogen, known commonly 
as black fingers of death, is very effective in eliminating the 
cheat grass carryover seed back.
    Addressing the invasive species issue is a high priority 
for the U.S. Forest Service. We believe our collaborative, all 
lands approach to invasive species management enhances our 
ability to work together by building on each other's strengths 
and authorities.
    I'd like to thank the Committee and Chairman for your 
interest in invasive species management, and I welcome any 
questions you may have at this time.
    [The prepared statement of Mr. Casamassa follows:]
    
    
  [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
  
     
    Senator Barrasso. Thank you very much.
    Before going on to Mr. Pool, I would like to invite Senator 
Gardner to make an introduction.

   STATEMENT OF HON. CORY GARDNER, U.S. SENATOR FROM COLORADO

    Senator Gardner. Thank you, Mr. Chairman, and thank you to 
the witnesses for your time and testimony today.
    Thank you, Mr. Chairman and Senator Franken, for holding 
this hearing.
    I would just like to take a few minutes to introduce Dr. 
Beck, George Beck, a great professor at Colorado State 
University (CSU), my alma mater as well. A professor, at the 
head of the Department, in the Department of Bioagricultural 
Sciences and Pest Management at CSU. A Professor of Weed 
Science can take on different meanings in Colorado these days, 
but you have been in this business longer than the others have 
been.
    So thank you very much for the opportunity to be here and 
certainly, Mr. Chairman, whether it is Dalmatian toad flax or 
the Douglass-fir tussock moth, we have significant invasive 
species to be concerned about throughout the West.
    Thank you, Dr. Beck, for being here.
    Senator Barrasso. Thank you, Senator Gardner.
    Mr. Pool.

STATEMENT OF MIKE POOL, ACTING DEPUTY DIRECTOR FOR OPERATIONS, 
   BUREAU OF LAND MANAGEMENT, U.S. DEPARTMENT OF THE INTERIOR

    Mr. Pool. Good afternoon, Mr. Chairman, Ranking Member, and 
Members of the Subcommittee. I'm Mike Pool, the BLM's Acting 
Deputy Director for Operations at BLM. Thank you for the 
opportunity to discuss this very important issue of invasive 
species and management across public lands.
    The Department shares the sponsor's goal of improving the 
management and control of invasive species on lands and waters 
that it manages and appreciates changes made in the bill since 
similar legislation was introduced in the House.
    BLM manages over 245,000,000 acres of public lands, 
primarily located in 12 Western states, and is deeply committed 
to preventing the introduction and spread of invasive species 
that threaten the nation's economy, environment and human 
health.
    Invasive and noxious weeds, like cheat grass, star thistle, 
Medusa head and salt cedar, exist on over 79,000,000 acres of 
BLM-managed lands and require significant effort to control and 
manage.
    The formidable challenges imposed by invasive species must 
be addressed for the BLM to effectively protect and preserve 
natural, cultural, historic and tribal resources, safeguard 
traditional uses of public lands, facilitate new economic 
opportunities and build ecological resilience to national 
disasters.
    The key to invasive species control is addressing the 
threat in a comprehensive and coordinated manner. Prevention 
early, detection and rapid response, also known as EDRR, 
control, coordination, education and outreach, research and 
restoration are critical elements for effective management of 
invasive species.
    To prevent and control invasive species, the BLM partners 
with state and local government agencies, tribes and the 
private sector to carry out this work. The BLM is proud to have 
played a role in working with Federal departments, agencies, 
states and tribes to develop the recently released 
interdepartmental EDRR framework, and we'll continue to work 
with all partners to implement the recommendations outlined in 
the report.
    The BLM is implementing many projects on public lands 
across the West to combat the spread of invasive species. For 
example, in Colorado the BLM has worked with stakeholders since 
2001 to remove over 30 miles of salt-cedar and restore native 
vegetation along the San Miguel River.
    In 2005 the BLM launched the Restore New Mexico initiative 
to restore disturbed lands on a landscape scale. Through that 
effort, the BLM has worked with state and local partners to 
restore over 3,000,000 acres of public land across New Mexico 
that had been previously denigrated by invasive species and 
woodland encroachment.
    The BLM has also worked on immediate rehabilitation efforts 
in the aftermath of major wildland fires each year such as the 
recent Soda fire which burned over 280,000 acres in 2015. These 
BLM post fire activities include erosion control, soil 
stabilization efforts, seeding, planting and area closures to 
protect the recently burned areas. Effective rehabilitation of 
these areas, including establishment of planted vegetation, can 
help combat invasive weed species.
    Throughout these and numerous other projects BLM has 
treated millions of acres to address invasive species, 
concerned threatened and endangered wildlife lands and 
rehabilitate and restore public lands following natural 
disasters. These actions result in significant benefits 
including more desirable recreating conditions, healthier 
habitat for fish and wildlife, decreased infestation of on both 
private and public land downstream and educational 
opportunities with adjacent landowners and outdoor 
recreationists to address larger scale noxious weed control 
efforts.
    We believe that the BLM does tremendous work on the ground 
with available resources, and we are always looking for 
opportunities to better work with our partners to increase our 
effectiveness and efficiency.
    The Department of the Interior--the Department supports the 
goals of S. 2240, to facilitate Federal efforts to address 
invasive species across public lands and waters and appreciates 
the changes included from the earlier iterations of the 
legislations. We have identified areas in the bill where 
additional clarity and further discussion with the sponsor and 
Subcommittee would be helpful.
    For example, we would like to work on language to maintain 
administrative flexibility to allow agencies to prioritize 
actions to address the most harmful species and adapt a new 
challenge on some public land.
    The Department does not support such an expansive 
categorical exclusion; however, we would both eliminate an 
important opportunity for public--which would also eliminate an 
important opportunity for public involvement, environmental and 
cultural review and land management decisions.
    Thank you for the opportunity to speak with you today, and 
I look forward to answering any of your questions.
    [The prepared statement of Mr. Pool follows:]
    
 [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
   
    
    Senator Barrasso. Thanks so much for your testimony.
    Mr. Miyamoto.

  STATEMENT OF DOUG MIYAMOTO, DIRECTOR, WYOMING DEPARTMENT OF 
                          AGRICULTURE

    Mr. Miyamoto. Thank you, Chairman Barrasso, Senator 
Franken, Members of the Subcommittee. Thank you for the 
opportunity to address you today about this important topic.
    My name's Doug Miyamoto. I'm the Director of the Wyoming 
Department of Agriculture, and this topic is particularly 
pertinent to me because almost half of the land mass of the 
State of Wyoming is federally administered and invasive species 
have as much impact on agriculture as they do any other sector.
    I'm here to talk about S. 2240, the Federal Land Invasive 
Species Control Prevention and Management Act. And I really 
want to emphasize my remarks on four critical components of 
this legislation that I think, based on our experience, will 
optimize its chances for success.
    First and probably foremost, this proposal mandates local 
leadership. In my experience farmers and ranchers have a vast 
amount of knowledge regarding the natural resources in which 
they live and work. They're also more impacted by any policy 
decisions that are made regarding those resources. I can point 
to local communities that have worked tirelessly in Wyoming to 
draft locally-developed plans for natural resources used 
ranging from sage grouse habitat to septic system remediation 
and projects for improved water quality. These agricultural 
producers are the exact people that time and time again 
volunteer to serve on their local Weed and Pest District Boards 
and their local Conservation District Boards to address these 
problems. I can also point to a huge local commitment from 
Wyoming. In 2015 alone, the State of Wyoming invested $19 
million in local weed and pest programs. My agency alone, the 
Department of Agriculture, contributed an additional $570,000 
through grants and collaborative invasive species management 
programs.
    The second key tenant that I wanted to emphasize today is a 
consistent commitment that this legislation would provide for 
our federal partners. Invasive species management simply 
demands an ongoing presence by all the partners, and S. 2240 
provides a realistic level of certainty that our federal 
partners can maintain a presence and finish the job that 
they've started.
    The third key component is that this is a goal-oriented 
proposal. The goal of a net five percent reduction in invasive 
species is identifiable and is trackable, at least to the 
maximum extent possible. There's also a strategic planning 
requirement in this proposal that's an essential part of the 
bill and it identifies specific actions and timing for optimal 
coordination with other federal agencies, state agencies and 
local jurisdictions, which I know, will increase our return on 
investment.
    The fourth key component that I would like to highlight, 
specifically addresses one of our biggest and albeit 
inadvertent problems and that's the National Environmental 
Policy Act. And I'll give you a local example to highlight.
    In June 2012 there was a fire that started about 30 miles 
southwest of Laramie, Wyoming called the Squirrel Creek Fire. 
It burned about 11,000 acres. Ninety percent of those acres 
were on Forest Service-administered lands.
    Prior to the fire starting satellite imagery showed that 
less than ten percent of the cover was cheat grass. Forest 
Service initiated the Environmental Impact Statement (EIS) at 
that time, and the problem is that it took four years for that 
EIS to be completed. In the four years since the fire started 
cheat grass occupancy has more than doubled, and so we're now 
looking at total coverage of more than 25 percent in cheat 
grass.
    I want to contrast that to a fire that ignited just last 
summer in Northern Wyoming, the Sheep Creek Fire. This fire 
occurred on mostly state-managed lands, and the topography and 
land use between these two fires is similar. The topography is 
the same and the land use is the same. Riverside treatments for 
cheat grass in the Sheep Creek Fire were applied within four 
months of the fire and cheat grass is, today, less prevalent 
than it was before the fire started. The categorical exclusion 
language of the bill is extremely important. Sometimes these 
actions require a timeliness that, so far, has been a challenge 
for us in some instances.
    Invasive species simply demand a high degree of 
collaboration across jurisdictional boundaries. In the case of 
the Squirrel Creek Fire, Forest Service committed seven percent 
of the funding despite having jurisdiction for 90 percent of 
the land. In Wyoming we eagerly await the opportunity to 
collaborate with our federal partners in an effort where the 
common goal is invasive species control, prevention and 
management. I know that these will be universally supported, 
and I know it will also provide us yet another opportunity to 
prove that locally led and collaborative conservation works 
best.
    Thank you again for the opportunity to speak with you today 
about this important topic.
    [The prepared statement of Mr. Miyamoto follows:]
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    
    Senator Barrasso. Well, thanks so much for your thoughtful 
testimony, and we appreciate you coming to be with us today.
    Dr. Beck.

   STATEMENT OF DR. GEORGE BECK, PROFESSOR OF WEED SCIENCE, 
                   COLORADO STATE UNIVERSITY

    Dr. Beck. Chairman Barrasso and honorable members of the 
Committee, thank you for the opportunity to testify before you 
today.
    I'm George Beck, and I'm a professor of Weed Science at 
Colorado State University. Today I represent the Healthy 
Habitats Coalition. We are a diverse alliance dedicated to 
improving invasive species management in our country.
    In spite of almost three decades of efforts by many 
organizations working to persuade the Federal Government to do 
a better job of controlling and managing invasive species, not 
nearly enough progress has been made.
    Zebra mussels are in the Great Lakes, and Asian carp are 
poised to invade. Cheat grass, knapweed, and tamarisk abound in 
the West. Burmese pythons, melaleuca and hydrilla are wreaking 
havoc in Florida. The emerald ash borer is another invasive 
force. Insects are invading the Northeast and Midwest, and 
Hawaii is simply overrun with invasive species. All these 
problems are spurting rapidly in every state as invasive 
species without exception.
    Cheat grass alters habitats so significantly that it is 
clearly linked to the decline of the greater sage grouse 
habitat. We possess, however, the knowledge and ability to 
recover cheat grass infested sage grouse habitat if we would 
just seize the initiative to do so. For example, Colorado State 
University weed scientists recently completed a comprehensive 
study to demonstrate such success. And we have also developed 
approaches to target and eliminate the cheat grass soil seed 
reserve which then will provide the greatest opportunity to 
recover native species habitat.
    The invasive species conundrum in our country is not 
necessarily due to a lack of knowledge rather it is because of 
chronically poor federal land management agency performance 
around managing invasive species, and this is a reflection of 
chronically poor administrative leadership concerning this 
problem.
    Leadership from the National Invasive Species Council is 
practically non-existent. The recent charge by the Department 
of the Interior from NISC and their staff to lead the 
implementation of a national early detection and rapid response 
program is a significant error. NISC and their staff do not 
possess the appropriate knowledge base to implement EDRR and 
their leadership capacity will instantly be in question.
    It is highly unlikely the federal agencies will take 
direction from NISC staff regarding EDRR because staff are not 
authorized to provide such correction. Quite frankly, NISC 
could be dissolved and the funds used to operate that body be 
spent on decreasing population abundance of invasive species 
and recovering native species habitat.
    This poor federal performance is due to several reasons: 
Inconsistent budgets and non-transparency in the invasive 
species budgeting process; lack of collaboration, 
prioritization and on-the-ground performance with state and 
local governments; using NEPA as an excuse for an action or 
justification to postpone making timely management decisions; 
and, poor administrative leadership leading or developing 
appropriate invasive species public policy and management and 
budgetary action.
    The solution to these problems have been introduced as 
bills. S. 2240 works in the Senate and H.R. 1485 in the House. 
These are entitled the Federal Lands Invasive Species Control, 
Prevention and Management Act. The bills focus on the major 
land management agencies. The bills require agencies to develop 
a strategic plan and foster cooperative agreements with state 
and local governments, have categorical exclusions that will 
protect high value sites from invasive species and fully 
supports and facilitates EDRR. The bills will end years and 
years of analysis to approve management tools and requires 
invasive species populations to be decreased a net five percent 
annually to stay ahead of expansion rates, and it changes 
spending parameters. Seventy-five percent must go on the 
ground, not more than 15 percent on education and awareness or 
excuse me, awareness and research and up to ten percent on 
administration.
    We have multiple supporters for these efforts including an 
Invasive Species resolution from the Western Governors 
Association and direct support from Governor Otter of Idaho, 
former Governor Andrus of Idaho, Governor Martinez from New 
Mexico and the State of Wyoming.
    There's no federal administrative leadership on invasive 
species. It is up to Congress to provide that leadership and 
pass S. 2240 and H.R. 1485. Doing so will place our country on 
the road to begin solving our invasive species problems.
    Honorable members, we must stop kicking this can down the 
road.
    Thank you again for the opportunity to share the Healthy 
Habitats Coalition's thoughts on invasive species management 
and our country.
    [The prepared statement of Dr. Beck follows:]
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    
    Senator Barrasso. Thank you very much, Dr. Beck.
    Dr. Campbell.

  STATEMENT OF DR. FAITH CAMPBELL, VICE PRESIDENT, CENTER FOR 
                  INVASIVE SPECIES PREVENTION

    Dr. Campbell. Thank you, Chairman Barrasso and other 
Members of the Committee, for the opportunity to speak with you 
today about invasive species management.
    I do have a written statement that I've asked be included 
in the record.
    I represent the Center for Invasive Species Prevention and 
the Natural Areas Association. We believe everyone in this room 
agrees that invasive species cause enormous damage, that the 
nation needs a comprehensive invasive species program and that 
needed federal leadership has fallen short.
    The invasive species threat does not have a Teddy Roosevelt 
or a John Muir, but you can be the John Lacey, the Member of 
Congress who moves it forward. You can use your powers as 
Senators to promote strong and comprehensive programs that will 
praised 100 years from now.
    And I'm going to suggest some immediate practical steps 
that you can take.
    First, you can work with your colleagues to amend the Lacey 
Act, which I just praised John Lacey. One hundred sixteen years 
ago it was a very forward looking bill, but everything changes 
in 116 years. The Fish and Wildlife Service needs new authority 
to apply scientific risk assessments, to act quickly when 
confronted by an emergency, to regulate imports of all kinds 
and interstate movement of all animal taxa to deal with 
wildlife diseases such as West Nile virus and to have clear 
authority over the regulation of movement of these animals 
among the 49 continental states.
    A second action that you can help on is appropriations. 
None of the agencies, none of the land managing agencies, nor 
APHIS, the lead agency on prevention, has adequate funding to 
carry out its tasks.
    You could also conduct oversight hearings at which you 
bring in the secretaries and assistant secretaries and 
undersecretaries and ask them about their efforts. I think we 
all agree that they're the ones with the authority to ramp up 
these programs, but they don't get the pressure that they 
should be getting about this.
    I suggest three specific topics that you might ask them 
about. Has the Forest Service implemented its 2011 internal 
directive amending its manual to integrate invasive species 
activities across national forest programs, National Forest 
System programs? Why has neither the Forest Service nor the 
National Park Service adopted a nationwide regulation governing 
movement of firewood? And why has the Council on Environmental 
Quality not, over the last 15 years, met with the National 
Invasive Species Council to develop NEPA guidance which would 
solve, I think, many of the problems that have been enumerated 
here?
    And finally, in less than a year you will be holding 
confirmation hearings for new secretaries, undersecretaries and 
assistant secretaries at USDA and U.S. Interior Department and 
I ask you to ensure that questions about their plans for 
managing invasive species are prominent in those hearings.
    I do welcome your interest in the invasive species topic, 
and I congratulate the Healthy Habitat Coalition for a lot of 
hard work that's brought us to this point. Unfortunately, I do 
not agree that S. 2240 will provide the necessary changes.
    I've outlined some problems with the funding allocation, 
especially when combined with the five percent reduction goal. 
I fear that it creates even more overlapping reporting and 
coordination requirements that might further delay needed 
actions. I believe that the priorities for dealing with 
invasive species on national lands should be--should reflect 
national perspectives, not perspectives of individual state 
governors. And finally, I think that the NEPA categorical 
exemption outlined in the bill would expose the environment to 
additional damage.
    I'm ready to answer any questions you might have.
    Thank you.
    [The prepared statement of Dr. Campbell follows:]
    
    
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    
    Senator Barrasso. Well thank you so much for your 
testimony, Dr. Campbell.
    Mr. Miyamoto, thanks for being here. Thanks for traveling 
from Wyoming to Washington. I appreciate the commitment and the 
proactive approach that you and the rest of the Wyoming 
agencies have taken to control invasive species and to prevent 
ecological damage.
    In your testimony you provided an example of an unintended 
consequence of a slow, cumbersome NEPA process. You talked 
about the cheat grass and going from 10 percent to over 25, 
waiting four years. It is clear that a 48-month delay in 
applying necessary treatments like the one that you mentioned 
is unacceptable in any circumstance, but particularly when it 
is clear that invasives will soon cause catastrophic damage to 
the ecosystem.
    So in your experience do you believe that agencies, like 
the one that you oversee, would actually overuse this 
categorical exclusion in this bill?
    Mr. Miyamoto. Chairman Barrasso, I do not believe that 
agencies would overuse a categorical exclusion. When you're an 
agency such as the Wyoming Department of Agriculture or others 
like it, one of the responsibilities that you have to undertake 
is you have to know what the consequences of your actions will 
likely be in addressing some of these natural resource 
problems. These are oftentimes complicated situations, and you 
have to get multiple experts in the room to try to determine if 
what you're going to do is going to have a net benefit on the 
resource.
    So I think that is undertaken, particularly in the case 
where you're responding to something like fire. All of the 
outcomes are weighed, and you're simply managing as best you 
can to avert disaster. So I don't think the categorical 
exclusion would be used to a fault.
    Senator Barrasso. Okay.
    Mr. Pool, your agency has published an estimate that 
invasive species spread approximately, I think, 4,600 acres a 
day on federal lands alone in the Western United States. Is 
that accurate?
    Mr. Pool. Mr. Chairman, I would have to confirm that 
figure, and I will be glad to do so.
    [The information requested was not provided as of the time 
of printing.]
    Senator Barrasso. Okay, that would be great because I 
appreciate that the Department of the Interior recently 
published their new Early Detection and Rapid Response Plan. A 
key part of that protocol is the response is rapid. That is the 
rapid response component of this. The document reads, ``The 
comprehensive set of EDRR, Early Detection and Rapid Response, 
actions from coordination and planning, to monitoring and 
eradication must be effectively and efficiently implemented.''
    We would all agree with that desire.
    If one or more actions are not implemented or implemented 
inadequately, examples as the response is too slow, then the 
Early Detection and Rapid Response activities will fail and the 
invasive species will continue to spread, and that is what we 
have seen. So in reality the BLM and other agencies should have 
been responding quickly and efficiently all along.
    Can you talk a little bit about when does the BLM plan to 
implement this Department of the Interior's new EDRR 
recommendations and how does the agency plan to decrease 
reaction times? Then I am going to ask Mr. Casamassa the same 
question.
    Mr. Pool. Mr. Chairman, I think a tool that's worked very 
effectively for the BLM, given the number of acres that are 
affected by noxious plants, we felt that our NEPA process which 
is basically a programmatic environmental assessment that can 
cover a large province, that involves the public, that explains 
alternatives, that talks about various method treatments, has 
been a very effective tool for us.
    So we can address large areas with that one tool, and 
should we move into any type of application then we can simply 
go, for what we call, a determination of NEPA adequacy. It's 
not a laborious analysis. It's pretty much check the box and 
based upon what we plan to do. That tool has served us well in 
cooperation with our state, government entities, working with 
tribes, working with industry, working with our grazing 
permitees and working with the conservation/environmental 
community. It served us well.
    Just to reflect a little bit on use of the--for example on 
many of our fuel reduction projects to reduce catastrophic 
wildfire. We were challenged in the courts, and it was 
determined that the degree of our environmental analysis was 
inadequate.
    We turned that around, we, the BLM. We trained our 
practitioners in the field to improve upon the preparation, a 
programmatic environmental assessments more comprehensive. We 
think it's more informative with the public, and those tools 
have served us well in carrying out large project type 
application in terms of reducing invasive upon public land.
    Senator Barrasso. Mr. Casamassa, same thing from the 
standpoint of the Forest Service?
    Mr. Casamassa. Yeah, Chairman Barrasso, the Forest Service 
uses, for one thing, I'd start out with as far as an emergency 
response. Underneath the burned area emergency response, we do 
take actions immediately after a fire on those more 
significantly burned areas to ensure that invasive species and 
erosion of highly steep toils is taken care of. So I think we 
have that tool in our tool belt to actually be able to address 
some immediate, specific needs.
    We do have the wherewithal through the early detection and 
rapid response to have more of a consistent approach when it 
comes to looking at specific populations of invasives on the 
forests and using our forest plan as the umbrella to guide us 
when it comes to the management area of prescriptions and the 
stand ins and guides by which we would apply any kind of 
pesticide is that something that we have in place right now.
    We do recognize that under some categorical exclusions 
right now in our present authorities we've been very effective 
in focusing efforts on restoration, and we could support a call 
for rulemaking to establish, perhaps, an appropriate, necessary 
categorical exclusion for invasive species. This would enable 
us, I think, to kind of fill in the gap between those 
categorical exclusions that we have presently versus the ones 
that we would need specifically for invasive species.
    Senator Barrasso. Senator Franken.
    Senator Franken. Thank you, Mr. Chairman, again, for this 
hearing.
    I want to ask about a couple things. Climate change is one 
of them, and I noticed that in the testimonies there was very 
little discussion of that. I think Mr. Pool was the only one in 
your written testimonies to briefly acknowledge the connection 
between climate change and invasive species.
    It is no secret that climate change has strong, well-
established connections to invasive species on land and in 
water. Climate change is creating more favorable conditions, 
helping them spread in new areas, environments, and it seems to 
me that any plan to combat invasive species must also address 
the effects of climate change. It is concerning to me that that 
was more or less ignored in your testimony.
    So I would ask Mr. Casamassa and Mr. Pool, what are your 
agencies doing to address these concerns about climate change 
and invasive species?
    Mr. Casamassa. Yes, Senator Franken, we do recognize that 
the climate is changing and that it is having an impact on the 
National Forest System lands as well as all lands. We do know 
now that on average each fire season is probably around between 
70 and 80 days longer than it has been in the past.
    We are presently looking at ways to change, perhaps, our 
management prescriptions to ensure that there is more 
restoration and resilient forests that we're managing.
    Senator Franken. You are spending so much of the budget 
fighting the fires that you have less budget to maybe do that 
kind of management.
    Mr. Casamassa. Well certainly that in addition to, perhaps, 
the ever increasing fire season, the cost of fire suppression 
continues to increase. And it does take up over 50 percent of 
our operating budget which provides us with less funding to 
allocate toward restoration and ensuring that forests are 
resilient against climate change.
    Senator Franken. Mr. Pool.
    Mr. Pool. Yes, Senator, I share the same views as the 
Forest Service and the Department of the Interior. We recognize 
that there are climate change influences that are affecting 
Western rangelands. We also evaluate large scale conditions and 
trends.
    More recently, we're working in various prescriptions, 
adaptability, mitigation into some of our sage grouse policies 
in terms of improving upon habitat conservation and the 
sustainability of those populations.
    So we want to be adaptable as we work through trending 
conditions, and we want to come up with the right set of 
mitigations that can hopefully preclude the negative influences 
and trends of climate change.
    Senator Franken. Okay, thank you.
    I want to bring up the NEPA review process because Dr. 
Campbell brought it up and Dr. Beck brought it up and Mr. Pool, 
you brought it up. So just go ahead and discuss it, you three.
    Dr. Campbell, what are your concerns regarding this 
legislation in terms of NEPA review?
    Dr. Beck, you brought that up as sometimes you were saying 
that is an excuse. You feel like the NEPA review is an excuse, 
if I heard you correctly.
    Mr. Pool, you discussed the NEPA review as a necessary 
tool.
    I will start with Dr. Campbell because you expressed your 
concerns.
    Dr. Campbell. Thank you, Senator Franken.
    The procedure, the methods, that one uses to control any 
invasive species and I spend most of my time on tree killing 
insects and pathogens, not invasive plants, but it's true in 
all cases all those activities carry their own environmental 
downsides. And it is the belief of the organizations that I 
represent that those analyses need to be done so as to make 
sure that the cure is not worse than the disease to begin with.
    I do think that agencies can find ways to streamline this 
process. The large programmatic Environmental Impact Statements 
have served not just the land management agencies but others, 
APHIS, for example, quite well in setting up situations so that 
they can move quite quickly when a new outbreak is detected 
somewhere. They've already laid out the options and the pros 
and cons of them.
    It is very frustrating, I've been in this business almost 
as long as George has, that the Council on Environmental 
Quality has stonewalled efforts by the Invasive Species Council 
to come up with some government-wide guidance and the Council 
staff is not in a position to force EQ to cooperate.
    Senator Franken. Yes, I hope I didn't open a can of worms 
here, but it seems like a can of worms if it is worth exploring 
for the other two?
    Senator Barrasso. If you would like, go ahead.
    Senator Franken. I do not want open----
    Senator Barrasso. Then we will go to Senator Hirono.
    Senator Franken. Yes, sorry.
    Senator Barrasso. No, go ahead, finish what you wanted.
    Senator Franken. Well I just would like a comment from Dr. 
Beck and from Mr. Pool.
    Dr. Beck. Thank you for that question, Senator Franken.
    NEPA is a very important process, but when the process gets 
in the way of biology that's very difficult to accept. And but 
I think Wyoming has one of the best examples of unintended 
consequences associated with that.
    And a lot of times things sound very good on paper. We're 
going to take time. We're going to do this, but when you need 
to act now. I mean, if there's a fire, you're not going to do a 
NEPA analysis to make sure you're doing everything correct. 
You're going to get in there and get the job done.
    What we're saying is invasive species is a very similar 
process, and clearly in Senator Barrasso's bill this is 
outlined with categorical exclusions is a very small area that 
is being considered for an exception to NEPA so this job can be 
done. So early detection and rapid response is done correctly. 
And that's incredibly important because prevention is probably 
one of the most important things we have going for us, well for 
invasive species management. So when NEPA either by design or 
by use becomes a stumbling block that becomes unacceptable.
    Senator Franken. Thank you.
    Mr. Pool, do you have anything to add?
    Mr. Pool. Sure.
    So I mentioned previous there's two--there is which we 
address NEPA. There's the non-fire restoration type, prevention 
or actions and then there's the areas where we are responsive 
to the catastrophic effects of wildfire.
    As it relates to the catastrophic effects of wildfire, we 
have strike teams. It's an immediate response to get into the 
area and there is no NEPA requirement there.
    Now, if we're going to treat the area longer term, 280,000 
acres or longer, then we would come back in and address the 
appropriate NEPA analysis and mitigations and actions we need 
to take. But when you get into non-fire related project 
management we're talking hundreds, if not thousands, of acres 
similar to what happened, what New Mexico undertook. You want 
to inform the public. You want them to be part of the solution. 
And so you address a range of alternatives. For any given 
province we may elect to go with mechanical treatments, we may 
go with chemical applications and we may also use prescribed 
fire. All of those can have different consequences in trying to 
address infestations and the mitigations associated with it.
    So we have, over a number of years, working with partners, 
we think we've been successful using NEPA as a very effective 
tool.
    Senator Franken. Okay, thank you.
    And I apologize.
    Senator Barrasso. No, no, that is quite alright.
    Senator Hirono?
    Senator Hirono. Thank you very much.
    A question for Mr. Casamassa.
    The bill that is before us, S. 2240, mandates that no less 
than 75 percent of funds appropriated be used for on the ground 
control management and management of no more than 15 percent be 
used for investigations, outreach and public awareness and no 
more than 10 percent be used on administrative costs. So these 
are pretty prescriptive.
    Let me just cite what is happening in Hawaii with regard to 
Rapid Ohia Death. It is a pathogen on Hawaii Island that is 
currently ravaging our native Ohia trees. It is so new that the 
majority of the expenditures to date have been directed toward 
research on both the identification and spread of the disease, 
as well as public outreach to contain the pathogen to Hawaii 
Island. As you know we have a chain of islands, and we hardly 
need to have this spread to the other islands. We do not 
currently have known treatments or control options.
    Do you see the program funding allocations identified in 
this bill supporting work on Rapid Ohia Death under the 
circumstances that I have described and other new forest 
diseases? Do you think that the funding allocations allow 
agencies to collect the necessary intelligence to control 
invasive species or do you think that more flexibility is 
needed to work on invasive species on a case-by-case basis?
    Mr. Casamassa. Well Senator, certainly the way that the 
allocation is prescribed in the Senate bill 2240, is something 
that is a bit prescriptive. We have looked at the way that our 
funding now goes to and is allocated to various components of 
the overall program, and it is somewhat in line with those 
numbers.
    However, it would be advantageous, given the fact that on 
certain situations we may need to do something different than 
that allocation prescribes, and it would be advantageous for 
the agency to have the flexibility to allocate the resources 
where we think would be most appropriate.
    Senator Hirono. Does anyone else want to weigh in on this 
particular aspect of the bill?
    Dr. Beck. Yes.
    Senator Hirono. Dr. Beck.
    Dr. Beck. Yes.
    As I look at the bill there's, kind of, like reading the 
back of the page first. If you look at the back of the bill it 
clearly states in there that this, these new bills, would not 
usurp any previous invasive species, I guess, it's not 
statutes, but the ability for other agencies, for example, to 
do what they've been doing all along. So at Interior, USGS is 
typically considered to be the research arm, and in USDA it's 
usually the Agricultural Research Service. So to answer your 
question about these pathogens there's at least two entities 
there that could be doing the research independent then of what 
the Forest Service would be doing to help solve----
    Senator Hirono. Excuse me, my time is running out.
    So basically my concern was that the provisions of the 
percentages were really prescriptive and may not help in a 
particular situation, that was my question, because we all want 
the same thing. We want to get rid of the invasive species. So 
that was my question. Okay, let me move on.
    Mr. Pool and/or Mr. Casamassa, S. 2240 directs the 
secretaries to choose the least costly option to effectively 
control and manage invasive species. It further exempts the 
secretaries from conducting an environmental assessment, or an 
EIS.
    A number of you have already talked about the NEPA concern. 
I have a concern that the least costly option would often time 
result in the use of pesticides, and in Hawaii we have major 
concerns about the use of pesticides on our islands. Our fear 
is that exempting certain activities from having to do any EA 
or an EIS would jeopardize the health and well-being of the 
public.
    Mr. Pool, do you have a sense of the amount of pesticide 
required to achieve a five percent reduction in invasive 
species that cover lands owned and/or managed by BLM?
    Mr. Pool. Yeah, I don't have a sense, Senator, as to the 
analogy that you present on why. I think I could take those 
questions back to both Park Service and Fish and Wildlife 
Service, and I think they could provide you probably more 
information on that.
    Senator Hirono. The major concern is that the least 
expensive often will be something like use of pesticides, and 
the people in my state would be very concerned about that.
    Ms. Campbell, if you do not mind, Mr. Chairman, if I could 
just----
    Senator Barrasso. Yes, please go right ahead, Senator 
Hirono.
    Senator Hirono. Thank you so much.
    Ms. Campbell, the bill also requires a strategic plan for 
invasive species programs to achieve an annual five percent net 
reduction of invasive species populations. That sounds like a 
worthy goal except that we may not be able to really 
objectively get to that.
    There are a lot of insects such as the red imported fire 
ant and coconut rhinoceros beetle as well as forest pathogens 
such as the Rapid Ohia Death where estimating the population is 
challenging. Do you have any concerns about the agency's 
ability to define populations, measure said populations, 
measure a five percent reduction in populations and verify 
those measurements as required by the strategic plan under this 
bill?
    Dr. Campbell. Aloha, Senator Hirono.
    Senator Hirono. Aloha.
    Dr. Campbell. Thank you for the question.
    The issue of dealing with invasive species that move 
around, insects, as you mentioned and the pathogen, 
particularly this very alarming one attacking Ohia trees. And I 
think it's probably true of the aquatic ones as well.
    Trying to find them, as you said, detect them, to delimit, 
as APHIS would say, the extent of the infestation is often 
beyond the scientific capabilities of the agencies for several 
years, much less than finding tools that will actually contain 
them or control them. So I do think that it's unrealistic to 
expect to be able to reach a five percent reduction.
    I think it also needs to be said that all these land 
managing agencies are confronted by hundreds of different kinds 
of invasive species, that are at different stages of invasion, 
at different parts of the lands and waters that they manage and 
the appropriate tools may or may not be available if science 
takes a while to come up with these.
    And I'm afraid that a five percent reduction requirement 
will put a lot of pressure on the agencies to focus on those 
that are--for which we have tools and which are more easily 
measured which might be the invasive plants and take resources 
away from other invaders that are at least as damaging and 
which we could get a handle on if there were adequate research 
and strategic planning. And if I might divert just a moment. 
ARS and USGS do a lot of really useful research but so does the 
Forest Service, and I would hate to see it reduced.
    Thank you.
    Senator Hirono. Well I know that there are scarce resources 
for all of our agencies. Thank you very much.
    Dr. Beck, I could not help but note that in your testimony 
you quote someone from Hawaii for the--to give the example that 
the federal workers are not committed to protecting us from 
invasive species. So I just would like to say that I do not 
think that represents the majority of federal employees.
    Thank you.
    Thanks, Mr. Chairman.
    Senator Barrasso. Thank you, Senator Hirono.
    Well Dr. Beck, additional follow up.
    You raise some, I felt, alarming figures in the testimony 
regarding the role that a lack of agency accountability can 
play. So I appreciate that you said there is a reason for hope.
    You indicated that there is a body of knowledge to recover 
landscapes overrun by invasive populations by using the 
technology requires an initiative that federal agencies 
sometimes do not apply. It seems that the National Invasive 
Species Council (NISC) has failed in its coordination role. 
Despite promises to a House Committee last year the National 
Invasive Species Council has still not released an updated 
national management plan.
    Are you familiar with the Department of the Interior's new 
EDRR plan?
    Dr. Beck. Chairman Barrasso, I have read a little bit about 
it, probably as much as there's been released to the public.
    EDRR is an exceptionally important on prevention again, it 
is the cornerstone of invasive species management. Another part 
of prevention that sometimes doesn't get observed is brought up 
in your bill and that is the containment of something that's 
already here also is preventing it from spreading elsewhere.
    I think the Early Detection and Rapid Response is so 
critically important that within the bounds of our country, I 
think that the states probably best suited to take the lead on 
that. But the Federal Government has a very, very important, a 
critical role for things coming in from abroad and frankly, 
that is not done very well.
    I was on an Invasive Species Advisory Committee for six 
years and one of our tours was in addition to Hawaii, but we 
went to a port in Miami and that was just the standard theme is 
that there's not enough inspection. We don't catch enough, so 
the opportunity for prevention is not working as well.
    So the leadership on EDRR is very important, but I just 
don't see it happening out of the National Invasive Species 
Council. I think there's conflict between NISC and the 
agencies.
    Senator Barrasso. Okay, because I am just thinking about 
your significant experience both at the state and the federal 
level, and you are questioning, the opinion you have in the 
Department of the Interior's new plan if it is going to really 
make them any more effective.
    Dr. Beck. The potential certainly is there. It could be 
made more effective. There's not enough being done now to give 
more on a charge like this.
    I think what will end up happening is that's all that will 
be done. And not enough prevention of movement elsewhere of 
things that we already have will take it on the chin, if you 
will.
    Senator Barrasso. Okay, thank you, Dr. Beck.
    Senator Hirono, do you have any additional questions?
    Senator Hirono. Oh yes----
    Senator Barrasso. Yes, but if you would like to go at this 
point.
    Senator Hirono [off mic]:----
    Senator Barrasso. Okay.
    I appreciate you staying, but Senator Hoeven has arrived 
and I think he does have some questions, if it is okay with 
you?
    Thank you.
    Senator Hoeven. Thank you, Mr. Chairman, and I would like 
to thank all of the witnesses for appearing today.
    I hope I pronounce your name right having just arrived. Is 
it Casamassa?
    Mr. Casamassa. Yes, that's correct, Senator.
    Senator Hoeven. Alright.
    So our North Dakota cattle ranchers are constantly having 
to battle invasive species and noxious weeds like leafy spurge, 
Canadian thistle, toad flax are real problems on the grasslands 
and of course, that affects our cattle ranchers who are raising 
their herds out there.
    So can you talk about the Forest Service's efforts to 
collaborate with our North Dakota ranchers on those grasslands 
to fight these invasive species and preserve the health of the 
grasslands?
    Mr. Casamassa. Yes, Senator.
    The, you know, certainly working with the Grazing 
Association and the individual permitees on specific pastures 
within specific allotments and over, over a large area that is 
the grasslands both on the Dakota prairie grasslands and a 
number of different grasslands in Colorado and Wyoming, is part 
of the overall way that we ensure that we reduce the impacts of 
invasive species and that we are ensuring that there is 
adequate forage both now and into the future.
    So the livestock industry, the Grazing Association and 
individual permitees play an important role in ensuring that 
we're working across the mixed ownership to combat invasive 
species.
    Senator Hoeven. How do you see Chairman Barrasso's bill 
assisting in that collaborative effort, working with the 
locals?
    Mr. Casamassa. I certainly think that, you know, the 
ability to collaborate and leverage resources across all lands 
is critical and key to our ability to either control or 
eradicate invasive species. That is a key critical cornerstone 
to the way that we're going to, at least, arrest some of the 
impacts to invasive species.
    Senator Hoeven. Do you see working through that with MOUs 
between the ranchers and U.S. Forest Service or how would you 
implement that? How would you do it?
    Mr. Casamassa. I'd certainly start with right now the 
foundational piece of how we work with the Grazing Association 
is through allotment management plans, our forest plans, 
potentially Memorandums of Understanding, collection agreements 
with local, county, state and other federal entities that have 
some ownership within a particular grassland based on the mixed 
ownership. So it could be a wide array of methods and tools 
that we would use to ensure that we're collaborating and that 
we are, you know, we're working toward common goals.
    Senator Hoeven. Mr. Pool, a question to ask you in regard 
to BLM. What reports are you currently submitting to Congress 
and with what frequency and what are the delays that you are 
seeing and what are the primary causes of those delays?
    Mr. Pool. I would have to get back with you, Senator, on 
the reports that we're providing at this level in Congress.
    [The information requested was not provided as of the date 
of printing.]
    Can you clarify the other part of your question?
    Senator Hoeven. Well basically as it regards to this 
legislation and how you would be trying to expedite or address 
some of the reporting issues on BLM lands.
    Mr. Pool. I think we're going to have to work with you and 
the Committee and Subcommittee members and talk about our 
reporting requirements. I mean, we want to be responsive. We 
have a wealth of data that we can easily compile and provide to 
you.
    Senator Hoeven. Okay. Well, that is fine. If you would get 
back to me on that, that would be great.
    Mr. Pool. Sure.
    [The information referred to was not provided as of the 
date of printing.]
    Senator Hoeven. Alright, thank you.
    Mr. Chairman, thank you.
    Senator Barrasso. Thank you, Senator Hoeven.
    If there are no further questions, I just think it is 
important to note, Dr. Campbell, that I think your perspective 
in the tools that this bill provides are not mutually exclusive 
or even at odds. I think it is clear that prevention is the 
least costly and the most effective way to address new invasive 
species.
    Prevention is a key part of S. 2240, a concept which is 
included in the mandated funding for control and management 
programs.
    In their letter of support of this bill, the National 
Association of Conservation Districts urged inclusion of other 
relevant secretaries and departments to ensure that port 
activity and foreign invasive species could be appropriately 
managed. They said that preventing introduction is only one 
piece of the puzzle. The established population of invasive 
species must be contained and reduced.
    I want to thank all the witnesses for your time and your 
testimony today.
    If there are no further questions members may submit 
written follow up questions for the record. The hearing record 
will be open for two additional weeks.
    Senator Barrasso. The hearing is adjourned.
    [Whereupon, at 3:40 p.m. the hearing was adjourned.]

                      APPENDIX MATERIAL SUBMITTED

                              ----------                              

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


                                   [all]



</pre></body></html>
